No.

84 23

Supreme Court of the United States
{suP'»nec

f1lE

Wilfredo Torres,

JUN 2 ]

2021

Pro Se Petitioner
-vsNew York Legal Assistance Group,
Respondent
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
Petition for a Writ of Certiorari
Respondent:

Pro Se Petitioner:
Wilfredo Torres
470 Second Avenue Apt. 2A
New York, N.Y. 10016
Telephone: 212-447-1737

RECEIVED
JUN 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT 11 £

New York Legal Assistance Group
Beth Goldman, Esq.
Jill Rosenberg, Esq.
Robyn Tarnofsky, Esq.
7 Hanover Square
New York, N.Y. 10004
Telephone: 212-613-5000

Question Presented:

Whether Southern District of New York federal Judge Ronnie Abrams, who supports
government hit lists (SCOTUS 19-71), the Deep State (SDNY 13CV7173), and is married to U.S.
Deputy Attorney General Greg Andres, erred in starting a law clinic
—created by the court
—housed in the court
—paid by the court
as an extrajudicial tool to help dismiss politically sensitive pro se cases such as my national
security lawsuit 16CV2362 against the Deep State-CIA-FBI-COINTELPRO domestic
assassinations program.
Exhibit 1: Article and photograph of Judge Abrams commencing the law clinic.
Exhibit 2: Photograph of Deep State-CIA-FBI-COINTELPRO agents doing their sixth (6)
warrantless raid of my apartment.
This happened twenty (20) days after I asked Judge Abrams to recuse herself.
The Chief Judge of the Southern District of New York, Laura Taylor Swain, ignores my
complaints of court-corruption such as stolen documents, and false docket entries by the Clerk
of the Court Ruby J. Krajick.
The Chief Judge of the U.S. Court of Appeals for the Second Circuit, Debra Ann Livingston,
refuses to investigate my charges of corruption against Judge Ronnie Abrams and MagistrateJudge Kevin Nathaniel Fox "because they exceed five (5) pages".

Related Cases:
16CV2362 (RA)(KNF)
U.S. District Court- Southern District of New York
W. Torres vs City of New York, et al
Dismissed by Judge Ronnie Abrams on March 31, 2021
Pending Mandamus filed at U.S. Court of Appeals for the Second Circuit. Case 21-224
18CV6343 (RA)(KNF)
U.S. District Court-Southern District of New York
W. Torres vs The Blackstone Group
Dismissed by Judge Ronnie Abrams on September 4, 2019
U.S. Court of Appeals for the Second Circuit: denied on 12-20-2021
U.S. Court of Appeals for the Second Circuit: en banc petition denied on January 21, 2021
U.S. Supreme Court Petition for a Writ of Certiorari: Case 20-7869, denied
18CV4665 (RA)(KNF)
U.S. District Court-Southern District of New York
W. Torres vs New York City Health and Hospitals
Dismissed by Judge Ronnie Abrams
U.S. Court of Appeals for the Second Circuit is pending. Case 21-101.
19CV6332 (ER)(KP)
U.S. District Court-Southern District of New York
W. Torres vs City of New York, et al.
Pending before Judge Edgardo Ramos and Magistrate-Judge Katharine Parker

List of Parties:
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004
Robyn Tarnofsky, Esq.
New York Legal Assistance Group-Legal Clinic
40 Foley Square Room L122
New York, N.Y. 10007
Jill Rosenberg, Esq.
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004
Beth Goldman, Esq.
New York Legal Assistance Group
7 Hanover Square 18th. Floor
New York, N.Y. 10004

Index of Appendices:
Appendix A:
Case 16CV2362 (RA)(KNF)
W. Torres vs City of New York, et al.
Order of Dismissal
Notice of Appeal
Appendix B:
Case 18CV6343 (RA)(KNF)
W. Torres vs The Blackstone Group
Order of Dismissal
Appeal denied
SCOTUS denied
Appendix C:
Case 18CV4665 (RA)(KNF)
W. Torres vs New York City Health and Hospitals
Order of Dismissal
Appeal pending
Appendix D:
20CV6396 (LLS)
W. Torres vs New York Legal Assistance Group
Order of Dismissal
Appeal denied

Table of Contents:

Page #:

Motion for Leave to Proceed in Forma Pauperis
Cover

1

Question Presented

2

Related Cases

3

List of Parties

4

Index of Appendices

5

Table of Contents

6

Statement of the Case

7

Jurisdiction

8

Reasons for Granting the Petition

8

Conclusion

8

Proof of Service

9

Statement of the Case:

1—Serving the Deep State, U.S. Senate Select Committee on Intelligence members Charles
Schumer and Kirsten Gillibrand appointed U.S. Judge Ronnie Abrams to her position at the
Southern District of New York, and her husband Greg Andres, Esq. as Deputy U.S. Attorney
General and later as assistant to Special Counsel Robert Mueller.
Robert Mueller is the infamous former FBI Director who was named to that position by then
U.S. President George W. Bush five (5) days before 9/11 with the sole mission to cover-up the
Deep State-CIA controlled demolition of the twin towers.
On 11-07-2018 the U.S. Attorney for the SDNY tried to investigate and was quickly fired. Exh.3
In my present lawsuit 16CV2362 about a CIA warrantless raid of my apartment Judge Abrams
persecutes me, Andres orders additional warrantless raids, and Judge Abrams covers them up.
Exhibit 2.
2—I am erroneously included in the terrorists list of the United States government, and as such
am persecuted, tortured, and denied due process of law by the Courts. Exhibit 4.

3—The government of the United States publicly accepts that its own Central Intelligence
Agency ("the CIA") as enforcers of the Deep State bombed and destroyed the World Trade
Center on September 11, 2001 ("9-11"); slaughtered over 3,000 people almost at front of the
federal courthouse; blamed others; massacred over 1-million innocent men, women and
children in Iraq; got both political parties to assign billions of dollars to the fake "war on terror"
at home and abroad; multiplied the military budget; activated a tyrannical law called The
Patriot Act; a secret and omnipotent Court named Foreign Intelligence Surveillance Court;
and replaced the U.S. Constitution fora police-state. Exhibits 5,6,7,8.
4--As part of the CIA's COINTELPRO domestic assassinations program, on 9-28-2015 agents
of that agency accompanied by my landlord, Bellevue South Associates ("BSA"), carried-out a
warrantless raid of my apartment after breaking its door.
5—They left a handwritten note with the word "intel", and the name of New York Regional
Director of the Department of Homeland Security, Dennis McGowan, as the person that sent
them.
6—They called the raid a "wellness-check".
7—NYPD and federal officials not only ignored my complaints, days later they planted a
surveillance tower at front of my window. Exhibits 9 and 10.
8—I filed lawsuit 16CV2362 at the Southern District of New York federal Court, and it was
assigned to Judge Ronnie Abrams, and Magistrate-Judge Kevin Nathaniel Fox who always
protected the government agents while treating me like a criminal.

9—Invited by Judges Abrams, and Fox, the CIA agents and BSA returned on 4-28-2016, broke
the door of my apartment for another warrantless raid, handcuffed, abducted, and took me by
ambulance to HHC Bellevue Hospital to be tortured as a John Doe. Exhibit 11.
10—They called the raid "a wellness-check".
11—Judges Abrams and Fox covered-up the identities of the CIA agents, and refused to

include them in the case. 16CV2362-dockets 47, 66, 84, 89,105,106,108,119,120,121,127,
128,129, 132,152,158,162, 250, 259, 260, 261, 263, 264, 265, 267, 316, 342, 444, 435, 446.
12—In so doing Judges Abrams and Fox were inviting more attacks against me.
13—The NYPD filed an affidavit stating that the CIA agents, not the NYPD, were responsible
for handcuffing, kidnapping, transporting, and torturing me at HHC Bellevue Hospital. Case

16CV2362, docket 210.
14—The FDNY ambulance report states "A MALE ADULT COMPLAINING OF NOTHING". Case

16CV2362, docket 212.
15—During the torture I was assaulted by HHC Bellevue Hospital employees, forcefully injected
me with drugs, urine and blood were forcefully taken, and x-rays and MRI's were done.
16—The torture was such that I developed fever of 101 degrees, my two-days old spinal
surgery was permanently damaged, and up to this day need medications, treatment, and suffer
from PTSD.
17—New case 18CV4665 against HHC Bellevue Hospital was commenced without the CIA
defendants.

18—Despite being biased against me Judge Abrams denied my petition for her recusal.
Case 16CV2362, docket 333.
19—Invited by Judges Abrams and Fox, on 12-13-2018 a CIA agent posing as NYPD
Lieutenant Neil Veras, and NYPD Police Officer Patricia de Jesus, used a sledgehammer trying
to break the door of my apartment after I refused to give them access. Video-recorded.
20—On 12-20-2018 Veras, de Jesus, and Detective Christopher Rickford demanded access to
my apartment, and yelled threats such as "we will tell your neighbors that you are a rapist,
and a pedophile". Recorded.
21—On 12-21-2018 a community lawyer told me that Veras and de Jesus wanted to arrest me,
I surrendered at the 13th police station, was falsely charged with a misdemeanor, taken before
a Judge, released without bail, and the case was dismissed days later.
22—Twenty (20) days after I asked Judge Abrams to recuse herself (case 16CV2362-docket
333), on 2-27-2019 she retaliated by sending Veras, de Jesus, and three (3) NYPD policemen for
another warrantless raid of my apartment and falsely charge me with a misdemeanor.
23—Veras ordered the three (3) Police Officers to take me to the 13th police station while
he and de Jesus stayed behind ransacking the apartment in my absence. Exhibit 2.
24—1 was taken to the police station; with leg shackles to HHC Bellevue Hospital for another
involuntary psychiatric exam; to the police station; to Court; to the police station; to HHC
Bellevue Hospital; to the police station; and to Court where handcuffed behind my back a
Judge released me more than a day late; the case was dismissed a few days later.

25—Although the case was related to the previous raids, to escape the persecution by Judges
Abrams and Fox, I was forced to ask Chief Judge Colleen McMahon to assign it to a different
courtroom: new case 19CV6332 was commenced.
26—On 10-29-2019 Judge Abrams sent case 16CV2362 to Magistrate-Judge Fox for reports
and recommendations about the Motions for Summary Judgement. Docket 367.
27--Judges Abrams, and Fox, set traps, disregarded the evidence, and dismissed most
defendants of case 16CV2362, except Dennis McGowan, and Dr. Aaron Buckland.
28—On 1-07-2021 Judge Fox filed a report and recommendation to dismiss case 18CV4665,
against defendant HHC and gave me 14-days to file objections. Docket 38.
29—The same day, 1-07-2021, Judge Abrams capriciously dismissed the case disregarding the
14-days to file objections. 18CV4665, Docket 39.
30—After reading my objections to her premature dismissal of the case she stated: " l would
have dismissed it anyway". 18CV4665, docket 43.
I filed appeal 21-176, and Writ of Mandamus 21-101 at the Second Circuit Court of Appeals.
31—The same day, 1-07-2021, she also dismissed the case against defendants Dennis
McGowan, and Aaron Buckland without the reports of recommendations by Magistrate-Judge
Fox. Case 16CV2362, docket 445.
32—Case 16CV6434--Torres vs The Blackstone Group:
In December 2016 landlord-defendant BSA sold to The Blackstone Group for $700 million the
residential complex in which I live, and Blackstone continued the employment of its personnel.

33—Some of these employees had been stealing my mail to sabotage the lawsuit.
34—Judges Abrams and Fox ignored my motions about this issue. Case 16CV2362, dockets 215,

216, 223, 224, 227, 228.
35—On 7-16 20211 filed lawsuit 18CV6434 against Blackstone for stealing my mail, but the
problem persisted. Case 18CV6434, dockets 10, 28.
36—No even an email that I sent to Blackstone's CEO on 7-25-2018 with copy to the Court and
all the defendants got them to stop the theft of my legal mail. Exhibit 11.
37—DESPITE A CLEAR CONFLICT OF INTEREST BECAUSE SHE IS A FORMER EMPLOYEE OF LAW
FIRM DAVIS, POLK, WARDWELL, LLP, AND HER HUSBAND IS EMPLOYED THERE DOING MULTI­
BILLION DOLLARS TRANSACTIONS ON BEHALF OF DEFENDANT BLACKSTONE, ON 9-03-2019
JUDGE ABRAMS CAPRICIOUSLY DISMISSED MY LAWSUIT 18CV6434 AGAINST THAT COMPANY.
38—DESPITE A CLEAR CONFLCIT OF INTEREST BECAUSE SHE IS EMPOYED BY DEFENDANT
U.S. JUSTICE DEPARTMENT, AND HER HUSBAND WAS THE DOJ HIGH OFFICIAL WHO ORDERED
THE WARRANTLESS RAIDS OF MY APARTMENT, JUDGES ABRAMS AND FOX COVERED-UP THE
FEDERAL AGENTS INVOLVED IN THE RAIDS, PREVENTING THEIR INCLUSION AS DEFEDNDANTS.
39—On 2-26-2020 Judge Fox filed, and Judge Abrams accepted, recommendations to dismiss
most cases because I had answered without following Rule 56.
40—Judge Fox stated that I had answered the Motions for Summary Judgement as if I was not
aware of the Rule 56 requirements. Case 16CV2362, dockets 373, 374, 375, 376, 377.
41—The Rule 56 instructions were never mailed to me or were stolen by Blackstone.
42—My U.S. Supreme Court case 20-7869, Torres vs Blackstone was denied.

The Chief Judge of the U.S. Court of Appeals for the Second Circuit, Debra Ann Livingston.
Disregarded mv Petition of Corruption Against Judge Abrams and Fox.
a—U.S. Magistrate-Judge Kevin Nathaniel Fox covered-up the crimes of the following
government agencies in this case and denied me the right to include them and their agents as
defendants: Central Intelligence Agency ("CIA"), Federal Bureau of Investigation ("FBI"), and
U.S. Department of Justice ("DOJ"). Case 16CV2362, dockets 47, 66, 84, 89,105,106,108,119,

120, 121, 127, 128, 129,132, 152,158, 162, 250, 259, 260, 261, 263, 264, 265, 267, 316, 342,
444, 435, 446.
b—Magistrate Fox covered-up the crime of CIA agent Kevin Walight who carried-out the
warrantless raid of my apartment on 4-28-2016 after breaking its door, called it "a wellness
check", handcuffed, kidnapped, and removed me by ambulance to be tortured as a John Doe in
a hospital. Exhibit 11.
Magistrate Fox protected Walight despite an affidavit from a NYPD official at the scene who
states that it was the CIA, not the NYPD, which carried-out the illegal operation. Case

16CV2362, docket 210.
Magistrate Fox even disregarded the FDNY ambulance paramedic report stating: "a male adult
complaining of nothing". Case 16CV2362, docket 212.
c—THE REAL CULPRITS IN THESE CRIMES ARE THE JUDGE OF THE CASE, RONNIE ABRAMS, AND
HER HUSBAND GREG ANDRES, WHO AS A HIGH-LEVEL OFFICIAL OF DOJ ORDERED MORE CIA
WARRANTLESS RAIDS EVEN AFTER I CONTACTED THEIR INSPECTOR GENERAL ON 6-26-2018.
EXHIBITS 2, 9,10, and 13.

THE WARRANTLESS RAID OF 2-27-2019 TOOK PLACE 20 DAYS AFTER I ASKED JUDGE ABRAMS
TO RECUSE HERSELF. CASE 16CV2362, DOCKET 333. EXHIBIT 2.
VERY SIGNIFICANT IS THE FACT THAT AT DOJ GREG ANDRES WAS ASSIGNED TO THE OFFICE OF
ROBERT MUELLER WHO FIVE (5) DAYS BEFORE 9/11 HAD BEEN APPOINTED AS DIRECTOR OF
THE FBI TO COVER-UP THE DEEP STATE-CIA'S CONTROLED DEMOLITION OF THE TWIN TOWERS.
d—Corruption in this Court has even reached its Board of Judges which at a certain time
changed some rules and this was retroactively used by Magistrate Fox to deny one of the
motions to include the CIA and FBI as defendants. Case 16CV2362, dockets 250, 259, 260, 261,
263, 264, 267.
I filed appeal 18-1161 at the Second Circuit Court of Appeals, but it was dismissed by Deep
State-Foreign Intelligence Surveillance Court Judge, Jose Cabranes.
e—Magistrate-Judge Fox ignored my complains about theft of my legal mail by landlord.
The Blackstone Group to prevent the prosecution of the case. Case 16CV2362, dockets

215, 216, 223, 224, 227, 228.
f—When the four (4) law-firms representing about twenty (20) defendants submitted
voluminous Motions for Summary Judgement, the Court's law clinic assisting me asked for
fourteen (14) additional days which had been consented-to by the law-firms. Case 16CV2362,
docket 220. Exhibit 13.
Magistrate Fox ignored the motion and this forced me to answer on my own to meet the
Court's deadline.

Magistrate Fox then recommended, and Judge Abrams accepted, dismissal of the case because
I did not answer according to Rule 56. Case 16CV2362, dockets 373, 374, 375, 376, 377.
Although the defendants were required by law to send me the Rule 56 information, nothing in
the record indicates that it was sent.
Even if the Rule 56 material had been sent to me, Blackstone would have taken it.
g—When the 2-27-2019 warrantless raid of my apartment took place, to escape the
persecution of Judge Abrams and Magistrate Fox I had to ask the Chief Judge to assign it to a
different Judge: case 19CV6332 was created.
The Following Defendants are Partners of the New York Legal Assistance Group-Law Clinic:
United States Department of Justice
United States District Court-Southern District of New York
New York University School of Medicine
New York City Health and Flospitals
The NYLAG legal clinic intentionally caused the dismissal of my pro se case SDNY 16CV2362.

^q_£lo

/

rv*
Wilfredo Torres
470 Second Avenue Apt. 2A
New York, N.Y. 10016
Telephone: 212-447-1737

Jurisdiction:
For cases from federal Courts:
The date on which the Court of Appeals decided my case was March 24, 2021.
No petition for rehearing was filed in my case.
The jurisdiction of this Court is invoked under 28 U.S.C. section 1254 (1).

Reasons for Granting the Petition:
Corruption at the Southern District of New York federal Court, and at the United States Court
of Appeals for the Second Circuit must be eradicated.

Conclusion:
Only the United States Supreme Court can stop the fandango of corruption and servitude to
the Deep State by Judges of the Southern District of New York federal Court, and the United
States Court of Appeals for the Second Circuit.

